Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

April 20, 2021
By Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Board of County Commissioners of Weld County, Colorado v. Exby-Stolley,
No. 20-1357

Dear Mr. Harris:
We represent Petitioner the Board of County Commissioners of Weld County, Colorado in this
matter. We write to oppose in part Respondent’s request for a 45-day extension of time to file her
brief in opposition in this matter.
We do not oppose a reasonable 30-day extension for the brief in opposition, similar to that obtained
by most respondents in this Court. But Respondent’s requested 45-day extension—which appears
strategically timed to make it impossible for the Court to consider the petition before it rises for
the Summer recess—is unwarranted. Respondent cites the need to review the record, research the
legal issues, and prepare the brief in opposition. But that is what a 30-day extension for the brief
in opposition would allow Respondent’s counsel and co-counsel to do. And Respondent’s
counsel’s task here is easier than the average case because there will be no amicus briefs filed in
support of Petitioner that the brief in opposition will need to respond to.

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis Monterrey
Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo Warsaw
Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville. Legal Services
Center: Berlin. For more information see www.hoganlovells.com

Hon. Scott S. Harris
Clerk of the Court

-2-

April 20, 2021

Respondent’s requested extension should accordingly be granted in part and the time to file the
brief in opposition extended to and including only May 26, 2021.
Sincerely,
/s/ Sean Marotta
Sean Marotta
Counsel for Petitioner
cc:

Jason Wesoky, Counsel for Respondent (by e-mail)

